           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
           STATE OF OHIO
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2008

      June 2010   A-77-10-00012




 MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                       SOCIAL SECURITY
MEMORANDUM

Date:      June 17, 2010                                                  Refer To:

To:        Candace Skurnik
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Ohio for the Fiscal Year
           Ended June 30, 2008 (A-77-10-00012)

           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Ohio for the Fiscal Year ended June 30, 2008. Our objective was
           to report internal control weaknesses, noncompliance issues, and unallowable costs
           identified in the single audit to SSA for resolution action.

           The Ohio State Auditor performed the audit. The results of the desk review conducted
           by the Department of Health and Human Services (HHS) concluded that the audit met
           Federal requirements. In reporting the results of the single audit, we relied entirely on
           the internal control and compliance work performed by the Ohio State Auditor and the
           reviews performed by HHS. We conducted our review in accordance with the Council
           of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspections.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Ohio Bureau of Disability Determination (BDD) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The BDD is
           reimbursed for 100 percent of allowable costs. The Ohio Rehabilitative Services
           Commission (ORSC) is the BDD’s parent agency.

           The single audit reported that ORSC:

           •   Could not provide documentation to support the calculation of Federal cash draws
               for SSA’s disability program (Attachment A, Pages 1 and 2). The corrective action
               plan indicates the ORSC will adjust its Federal cash drawdown process to better
               document that funds are disbursed in accordance with Federal requirements
               (Attachment A, Page 2).
Page 2 – Candace Skurnik
•   Lacked internal control procedures to ensure payments for medical evidence were
    reviewed and approved prior to payment (Attachment A, Pages 3 and 4). The
    corrective action plan indicated that ORSC modified its process to require review
    and validation of medical evidence prior to payment (Attachment A, Page 4).

We recommend that SSA verify that ORSC:

1. Established appropriate controls to ensure cash draws for the SSA disability
   program are in accordance with Federal requirements.

2. Developed appropriate procedures to review and validate medical evidence
   payments prior to payment.

The single audit also disclosed the following findings that may impact BDD operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   Internal control weaknesses were identified related to the monitoring, security, and
    storage of programs and data in the State’s computer system (Attachment B,
    Pages 1 through 6).

•   Reconciliations were not performed between the detailed transactions and summary
    totals in the general ledger accounts (Attachment B, Pages 7 through.10).

•   Controls were not sufficient to ensure the corruption of information systems was
    minimized and automated applications were performing as management intended
    (Attachment B, Pages11 through 13).

•   Segregation of duties was not adequate over the purchasing of goods and services,
    and changes to the financial accounting structure (Attachment B, Pages 14 through
    16).

•   Documentation was not maintained to support interest earnings liability to the
    Federal Government (Attachment B, Pages 17 and 18).

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                                 Patrick P. O’Carroll, Jr.

Attachments
Attachment A
  Page 1 of 4
Attachment A
  Page 2 of 4
Attachment A
  Page 3 of 4
Attachment A
  Page 4 of 4
Attachment B
Page 1 of 18
Attachment B
Page 2 of 18
Attachment B
Page 3 of 18
Attachment B
Page 4 of 18
Attachment B
Page 5 of 18
Attachment B
Page 6 of 18
Attachment B
Page 7 of 18
Attachment B
Page 8 of 18
Attachment B
Page 9 of 18
Attachment B
Page 10 of 18
Attachment B
Page 11 of 18
Attachment B
Page 12 of 18
Attachment B
Page 13 of 18
Attachment B
Page 14 of 18
Attachment B
Page 15 of 18
Attachment B
Page 16 of 18
Attachment B
Page 17 of 18
Attachment B
Page 18 of 18
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
